             OFFICE OF
             INSPECTOR
             GENERAL
             UNITED STATES POSTAL SERVICE




          The Postal Service’s Use of
                Social Media

              Management Advisory




                                            August 1, 2013

Report Number MS-MA-13-003
                                                                          August 1, 2013

                                             The Postal Service’s Use of Social Media

                                                         Report Number MS-MA-13-003




BACKGROUND:
Social media is an online                     from having subject matter experts
communications tool that integrates           assist in responding to stakeholder
technology, social interaction, and           comments.
content creation. It is an increasingly
popular business tool for communicating       The Postal Service could enhance the
information to diverse stakeholders and       functionality of its social media sites by
a vehicle for receiving and addressing        more effectively linking sites for easier
customer suggestions and complaints.          navigation and cross-referencing to
Through social media sites (blogs,            maximize their visibility to stakeholders.
forums, podcasts, wikis, and videos)          Finally, the Postal Service could identify
organizations can create, organize, edit,     systemic issues through stakeholder
comment, combine, and share content.          concerns and further improve customer
                                              service by summarizing and analyzing
The U.S. Postal Service’s social media        customer comments and complaints
presence includes 18 social media sites,      posted via all of its social media sites.
including Facebook, Twitter, and
LinkedIn. The Postal Service uses these       WHAT THE OIG RECOMMENDED:
platforms to enhance communication            We recommended the Postal Service
and customer service. For example, it         enhance customer engagement via
provides forums to solicit customer           specific blogs or additional social media
feedback and announce the issuance of         sites. We also recommended that
new stamps.                                   subject matter experts contribute and
                                              respond to postings related to their
Our objective was to evaluate the Postal      areas of expertise and that the Postal
Service’s social media use and identify       Service link its social media sites for
opportunities to improve this critical        easier navigation and cross-referencing
communication tool.                           to maximize their visibility to
                                              stakeholders. Finally, we recommended
WHAT THE OIG FOUND:                           that the Postal Service share analytical
Opportunities exist for the Postal            reports and data with other social media
Service to enhance its use of social          dedicated groups and evaluate how
media. Specifically, the Postal Service       social media can be used effectively
could enhance customer engagement             within a comprehensive customer care
via blogs or additional social media sites    program.
to better communicate with, and obtain
input from, specific stakeholder groups.      Link to review the entire report
The Postal Service would also benefit
August 1, 2013

MEMORANDUM FOR:            JUDY DE TOROK
                           ACTING VICE PRESIDENT, CORPORATE
                           COMMUNICATIONS

                           MAURA ROBINSON
                           VICE PRESIDENT, CONSUMER AND
                           INDUSTRY AFFAIRS

                                E-Signed by Janet Sorensen
                            ERIFY authenticity with eSign Deskto




                           for
FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance


SUBJECT:                   Management Advisory – The Postal Service’s Use of Social
                           Media (Report Number MS-MA-13-003)

This report presents the results of our review of The Postal Service’s Use of Social
Media (Project Number 13RG007MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director, Sales
and Marketing, or me at 703-248-2100.

Attachment

cc: Nagisa M. Manabe
    Jeffrey C. Williamson
    Susan McGowan
    Toni DeLancey
    Corporate Audit and Response Management
The Postal Service's Use of Social Media                                                                          MS-MA-13-003




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Stakeholder Communication ........................................................................................... 2

Customer Feedback and Comments ............................................................................... 2

   Response to Customer Comments.............................................................................. 3

   Analysis of Customer Comments ................................................................................ 3

Enhanced Functionality ................................................................................................... 4

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Management's Comments ........................................................................ 11
The Postal Service's Use of Social Media                                        MS-MA-13-003




Introduction

This report presents the results of our review of the U.S. Postal Service’s use of social
media (Project Number 13RG007MS000). Our objective was to evaluate the
Postal Service’s social media use and identify opportunities to improve this critical
communication tool. This self-initiated review addresses strategic risk. See Appendix A
for additional information about this review.

Social media is an online communication tool that integrates technology, social
interaction, and content creation. Through social media, organizations can create,
organize, edit, comment, combine, and share content. Some forms of social media
include blogs, forums, podcasts, wikis, and videos. The forms of social media continue
to expand as new technology emerges.

The use of social media (such as Internet forums, blogs, Facebook, Twitter, YouTube,
and so forth) is an increasingly popular means of communicating information to
employees and members of the public and to receive and address customer feedback.
The Postal Service responds to a variety of stakeholder groups, including the public,
mailers, employees, the media, Congress, and the Postal Regulatory Commission.

The Postal Service began using social media in 2009 and today has 18 social media
websites, including Facebook, Twitter, and LinkedIn. The Postal Service uses these
platforms to enhance communication, provide a forum to customers to solicit feedback,
and provide a human resources portal for college students and prospective employees.
The social media sites are primarily managed by Corporate Communications, Human
Resources, and Stamps Services.

In 2012, Corporate Communications was tasked with coordinating the various social
media efforts used to disseminate information and receive feedback from stakeholders.
Corporate Communications has increased its efforts to administer this increasingly
important customer service vehicle. For example, it has developed written guidelines,
increased support staff working on social media, and begun to coordinate social media
content with other Postal Service groups.

Conclusion

Opportunities exist for the Postal Service to enhance its use of social media.
Specifically, the Postal Service could enhance customer engagement via specific blogs
or additional social media sites to better communicate with, and obtain input from,
various stakeholder groups. The Postal Service could also benefit from having subject
matter experts assist in responding to stakeholder comments. In addition, the Postal
Service could enhance the functionality of its social media sites by more effectively
linking various sites for easier navigation and cross-referencing to maximize its visibility
to stakeholders. Finally, the Postal Service could share analytical reports and data with
                                              1
The Postal Service's Use of Social Media                                                                MS-MA-13-003



other social media dedicated groups and evaluate how social media can be used
effectively within a comprehensive customer care program.

Stakeholder Communication

The Postal Service could better use social media to communicate with, and obtain input
from, various stakeholder groups. Stakeholders we spoke with from the mailing industry
expressed an interest in an enhanced Postal Service social media presence, which
would serve as a forum to generate innovative ideas and new business opportunities
and improve the Postal Service’s engagement with customers. Stakeholders suggested
the Postal Service create blogs or additional social media sites tailored to specific
industry groups, such as those in the mailing industry.

The Postal Service should consider additional opportunities to enhance its outreach and
communication with stakeholders, including:

   Increased operational visibility by hosting periodic blogs/forums on Postal Service
    and industry-specific topics developed by internal experts (such as plant operations,
    delivery, and parcel handling).

   Unique and secure social media sites for specific stakeholder groups, including
    employees and mailers, which would allow dialog to be generated and feedback
    considered.

   Evaluate the benefits of creating secure crowdsourcing 1 events that would
    encourage stakeholder problem-solving and innovation on specific topics, such as
    following up on issues raised at quarterly meetings with mailers. 2

The Postal Service could better engage its stakeholder community by tailoring social
media tools to meet specific customers’ needs. Further, these efforts could enhance
relationships with customers by providing dynamic tools to allow customers to generate
innovative ideas and new business opportunities.

Customer Feedback and Comments

The Postal Service currently does not summarize and capture customer comments in a
centralized data system. Customer comments received through social media should be
summarized and analyzed as part of the Postal Service’s customer service strategy.
Sharing this information among the Postal Service program groups could help identify
systemic issues through stakeholder concerns and further improve customer service.


1
  The practice of obtaining needed services, ideas, or content by soliciting contributions from a large group of people,
especially the online community. For example, Challenge.gov is an online challenge platform administered by the
U.S. General Services Administration in partnership with ChallengePost that empowers the U.S. government and the
public to bring the best ideas and top talent to bear on our nation’s most pressing challenges.
2
  The Mailers Technical Advisory Committee meets quarterly with postal officials, in part to provide advice and
feedback on postal innovations, such as the Intelligent Mail barcode.
                                                            2
  The Postal Service's Use of Social Media                                                       MS-MA-13-003



  Table 1 summarizes how the Postal Service currently addresses stakeholders’ social
  media comments.

               Table 1. The Postal Service’s Use of Social Media Comments

                                                                                        Consumer and
                                                              Corporate                Industry Affairs
                  Task                                      Communications                  (CIA)
 Searches social media sites using
 specialized software                                                                           X
 Manually reviews social media sites                                      X
 Analyzes comments                                                        X                     X
 Shares information with executives                                       X                     X
 Responds to comments                                                     X
Source: U.S. Postal Service Office of Inspector General (OIG) analysis.

  Response to Customer Comments

  Currently, Corporate Communications responds to comments made on the corporate
  sites 3 using standardized language. For example, if a customer posts a comment
  regarding a missing package, Corporate Communications may respond by saying:

            We apologize that you have not received your package. Please contact
            our track and confirm customer service department at 1-800-222-1811
            for further assistance and information. Thank you.

  It may be beneficial to designate a social media liaison in each of the various product
  and service groups who could contribute, and help Corporate Communications respond
  to postings related to its functional area of expertise. While Corporate Communications
  has, in the past, contacted other internal groups/functional areas to gather information
  necessary to respond to a comment related to that group’s product or service, it
  required them to locate someone in a group for assistance. Designated liaisons could
  provide more dynamic responses and may be better equipped to respond to comments
  and identify trends among posts related to their group.

  Analysis of Customer Comments

  The Postal Service uses social media comments it receives to gauge the perceptions
  and sentiment of the public towards the Postal Service. Social media comments are
  analyzed by both Corporate Communications and CIA. Corporate Communications has
  recently begun to conduct weekly and monthly analysis of comments on its social media
  pages to understand the sentiment of Postal Service followers. CIA does not provide
  social media analysis on a routine basis to the stakeholders. However, during
  scheduled quarterly Customer Experience briefings, specific topics driven by the
  3
   Corporate web pages refer to pages administered by Corporate Communications, rather than Stamps Services or
  Human Resources.
                                                        3
The Postal Service's Use of Social Media                                                             MS-MA-13-003



analysis of social media have been discussed with organizational stakeholders. In
addition, ad hoc social media reports have been provided to Postal Service officials
or program managers when requested. Corporate Communications and CIA currently
do not share their analyses with each other.

The Postal Service is in the process of insourcing its customer care centers that handle
complaints, suggestions, and inquiries–in three locations. 4 Once the postal care centers
are established, the Postal Service plans to evaluate how these care centers can
address complaints made through social media. The Postal Service has surveyed
software that could be used to track and analyze social media comments and
complaints. Prior to implementing a social media program responding to customer
concerns, the Postal Service needs to undertake extensive evaluation of how social
media can be used effectively within a comprehensive customer care program. This
evaluation should include an assessment of how results of social media comments
could be tracked, analyzed, and shared among other functional areas in the Postal
Service.

Enhanced Functionality

The Postal Service should link its various social media sites for easier navigation and
cross-referencing to maximize its visibility to stakeholders. We reviewed each Postal
Service social media web page and found that most of them do not reference or link to
other Postal Service social media sites. 5 Further, stakeholders conveyed they were
unfamiliar with the social media outlets the Postal Service administers. Adding links to
the social media sites would more easily identify other Postal Service social media web
pages for followers. For example, the Stamp Services’ Facebook page has icons
embedded that allow a follower to directly link to other Stamp Services-administered
social media sites. However, the Corporate Communications’ Facebook page does not
offer a similar feature. Having icons or links embedded on pages would direct
customers to these additional Postal Service pages for more information and easier
navigation. As the Postal Service moves forward with its social media use, we believe
opportunities exist to enhance its social media presence and functionality.

Recommendations

We recommend the acting vice president, Corporate Communications, coordinate
Postal Service efforts to:

1. Enhance customer engagement via specific blogs or additional social media sites to
   better communicate with, and obtain input from, various stakeholder groups.



4
  The centers’ locations are Edison, NJ; Los Angeles, CA; and Troy, MI; and are scheduled to be fully operational in
early 2014.
5
  A website is a collection of linked documents and content associated with a single group. For example, Facebook is
a website. A web page is a single page of content on a website. For example, USPS Stamps Facebook page is a
web page.
                                                          4
The Postal Service's Use of Social Media                                      MS-MA-13-003




2. Identify subject matter experts to contribute and assist Corporate Communications in
   responding to postings related to their areas of expertise.

3. Link its various social media sites for easier navigation and cross-referencing to
   maximize their visibility to stakeholders.

We recommend the acting vice president, Corporate Communications, in coordination
with the vice president, Consumer and Industry Affairs to:

4. Share analytical reports and data with other social media dedicated groups.

5. Undertake evaluation of how social media can be used effectively within a
   comprehensive customer care program.

Management’s Comments

Management agreed with our findings and recommendations. Regarding
recommendation 1, management agreed that blogs were an important part of their
social media strategy and efforts to encourage input and engagement from customers
should be improved by July 31, 2014.

Regarding recommendation 2, management stated subject matter experts and liaisons
have been identified and by August 2013 additional opportunities will continue to be
explored as the Postal Service strengthens its social media presence.

Regarding recommendation 3, management agreed with the importance of linking and
cross-referencing Postal Service social media channels and cited examples of how the
Postal Service was doing so. Management plan to continue and increase these efforts
by August 31, 2014.

Regarding recommendation 4, management described the extent to which the Postal
Service shares its analyses among internal social media groups, liaisons, and experts
and cited plans to share analyses and insight with additional social media groups by
August 31, 2013.

Regarding recommendation 5, management agreed to fully evaluate the cost-effective
use of social media in a customer care program by September 30, 2014. This includes
which tools are available, how they can be integrated into the technology platform, and
which business rules might apply when addressing and resolving comments made via
social media channels. See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

                                            5
 The Postal Service's Use of Social Media                                                              MS-MA-13-003




                                  Appendix A: Additional Information

 Background

 The Postal Service first entered the social media scene through a Postal Service
 Stamps Facebook page in 2009 and, subsequently, created Business and Human
 Resources recruitment pages on Facebook. The Postal Service ventured into Twitter,
 YouTube, and smaller social media sites by 2011 and currently has a web presence on
 18 social media web pages (see Table 2).

                    Table 2. The Postal Service's Social Media Web Pages 6

 Corporate Communications                   Stamps Services                       Human Resources
 Postal Service Corporate                   Postal Service Stamps                 Postal Service Careers
 Facebook                                   Facebook                              Facebook
 Postal Service Corporate                   Stamps Educational                    Postal Service Careers
 Twitter                                    Facebook                              Twitter
 LinkedIn 7                                 Postal Service Stamps                 Postal Service on Campus
                                            Twitter                               Twitter
 YouTube                                    Stamps Educational
                                            Twitter
 Postal Service Blog                        Stamp of Approval Blog
                                            Pinterest
                                            Instagram
                                            Tumblr
                                            Google+ 8
                                            Beyond the Perf blog
Source: OIG analysis.

 Its most popular social media sites are Facebook pages, Twitter pages, and a YouTube
 dedicated channel. The content on these sites has generated 72,073 'likes' on
 Facebook, 9,464 followers on Twitter, and 304,979 views on YouTube, respectively, as
 of June 11, 2013. These social media forums are used to reach anyone with an interest
 or stake in Postal Service affairs (see Figures 1, 2, and 3).




 6
   The Western Area administers a blog and a podcast in addition to these sites. Corporate Communications also
 identified Yammer as a social media site that is restricted to employees and can be used for announcements and
 collaboration.
 7
   Human Resources uses the corporate LinkedIn page to post position announcements but recruits via personal
 LinkedIn accounts.
 8
   Google+ is a social media site, similar to Facebook. It allows the user to create a profile web page within the
 Google+ site to be used to communicate and connect with others online.
                                                              6
The Postal Service's Use of Social Media                                    MS-MA-13-003



                   Figure 1. The Postal Service's Recruiting Twitter Page




Source: Postal Service page, June 11, 2013.

                         Figure 2. The Postal Service's LinkedIn Page




Source: Postal Service page, June 11, 2013.




                                              7
The Postal Service's Use of Social Media                                 MS-MA-13-003



                   Figure 3. The Postal Service's Stamps Facebook Page




Source: Postal Service page, June 11, 2013.

Comments requiring responses are primarily posted by customers on the Facebook and
Twitter sites. Corporate Communications only addresses comments made on its pages
and only uses responses from preapproved organizations, customer contact centers,
and comments from various Postal Service groups. Customer inquiries on the Stamps
or Human Resources sites are generally redirected to a customer call center. Some
sites are only used for information dissemination (one-way communication), while
others are a forum to generate conversation among followers (two-way communication).
Not all sites are used to receive feedback and commentary from stakeholders (see
Table 3), although all have the capability to do so.




                                              8
 The Postal Service's Use of Social Media                                                            MS-MA-13-003




             Table 3. The Postal Service's Social Media Communication Type

                 Social Media Site                                        Communication Use
 Facebook*                                                    Two-Way
 Twitter*                                                     Two-Way
 YouTube                                                      Information Dissemination
 Stamp of Approval Blog                                       Two-Way
 Pinterest                                                    Information Dissemination
 LinkedIn                                                     Two-Way
 Postal Service Blog**                                        Two-Way
 Instagram                                                    Information Dissemination
 Tumblr                                                       Information Dissemination
 Google+                                                      Two-Way
 Beyond the Perf Blog                                         Information Dissemination
 Your Postal Blog                                             Two-Way
 Your Postal Podcast                                          Two-Way
Source: OIG prepared.
Note: *The Postal Service has multiple sites on these forums.
Note: **This site is currently awaiting development while Corporate Communications decides how the site will be used.

 Objective, Scope, and Methodology

 Our objective was to evaluate the Postal Service’s social media use and identify
 opportunities to improve this critical communication tool. To accomplish our objective,
 we researched and identified the Postal Service's level of social media presence and
 communication efforts. We interviewed Postal Services managers, employees, and
 interns involved with the administration of social media sites to determine how sites are
 monitored and managed. We identified and reviewed current policies and guidelines
 that pertain to Postal Service employees’ use of social media and reviewed social
 media benchmarking reports previously conducted by Postal Service contractors. We
 also interviewed Postal Service mailing industry stakeholders to hear their views on the
 Postal Service’s social media efforts.

 We conducted this review from December 2012 through July 2013 in accordance with
 the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
 Inspection and Evaluation. We discussed our observations and conclusions with
 management on July 1, 2013, and included their comments where appropriate.




                                                          9
   The Postal Service's Use of Social Media                                      MS-MA-13-003



   Prior Audit Coverage


                                                            Final Report
          Report Title               Report Number              Date          Monetary Impact
Meeting America's Emerging          RARC-WP-12-009           4/27/2012               None
Communications Needs
Report Results: Mobile devices, in conjunction with network connectivity and social media,
foster new channels of increasingly instantaneous and collaborative messaging (such as
texting, tweeting, and blogging) and shift control from broadcast media to the individual
recipient. The Postal Service’s mission to “bind the nation together” is well suited to bridging
the nation’s digital and physical spheres to meet the new communications, commerce, and
information management needs of Americans. The Postal Service is a permanent institution
with the existing infrastructure to provide a hybrid solution with complementary digital
components that offer access, convenience, and fosters economic opportunities. The OIG did
not make any recommendations in this report.

The Postal Service Role in           RARC-WP-11-002          2/24/2011             None
the Digital Age Part 1: Facts
and Trends
Report Results: The Postal Service has maintained its position in physical communications
due to its reach and monopoly access; however, new competitors are bypassing this
advantage, changing the 'postal ecosystem.' Some of the main types of service providers in
the digital economy today, such as social media, look to maintain or grow their position as
digital economy evolves. Social media offers brands more than just an outreach platform and
social media sites are becoming increasingly popular as a marketing vehicle that allows
feedback without the need for expensive focus groups or consumer polls. Companies have
been shifting their marketing budgets from traditional to new media tools like corporate
websites, blogs, and social media. While the return on investment has been difficult to
calculate, it is clear that social media has been an effective method of boosting brand
awareness. The OIG did not make any recommendations in this report.




                                               10
The Postal Service's Use of Social Media                        MS-MA-13-003



                            Appendix B: Management's Comments




                                           11
The Postal Service's Use of Social Media        MS-MA-13-003




                                           12
The Postal Service's Use of Social Media        MS-MA-13-003




                                           13
The Postal Service's Use of Social Media        MS-MA-13-003




                                           14
